<html>
<title> - EXAMINING EMPLOYEE MISCONDUCT AT EPA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                  EXAMINING EMPLOYEE MISCONDUCT AT EPA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2016

                               __________

                           Serial No. 114-137

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-509 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
               Melissa Beaumont Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2016.....................................     1

                               WITNESSES

Mr. Stanley Meiburg, Acting Deputy Administrator, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Patrick Sullivan, Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. Environmental 
  Protection Agency, Accompanied by Allan Williams, Deputy 
  Assistant Inspector General for Investigations, Office of 
  Inspector General, U.S. Environmental Protection Agency
    Oral Statement...............................................    12
    Written Statement............................................    14

                                APPENDIX

2016-02-26 Shelby, Sessions, Palmer to EPA re CERCLA.............    54
2016-03-29 EPA Response to Palmer re CERCLA......................    57
RESPONSE Meiburg-EPA to Chaffetz QFRs 2016-07-13.................    59


                  EXAMINING EMPLOYEE MISCONDUCT AT EPA

                              ----------                              


                        Wednesday, May 18, 2016

                  House of Representatives,
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:02 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Massie, Meadows, DeSantis, Mulvaney, 
Walker, Blum, Hice, Carter, Grothman, Palmer, Cummings, 
Maloney, Norton, Connolly, Kelly, Lawrence, Watson Coleman, 
Plaskett, DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    Today's hearing is entitled ``Examining Employee Misconduct 
at the EPA.'' It is a topic we have addressed a few times, but 
it doesn't seem to be getting better. So we will continue to 
highlight this as long as it takes, because in my opinion, the 
EPA is one of the most toxic places in the Federal Government 
to work. If you don't get rid of the toxicity of the employees 
there at the EPA, we are doing a great disservice to this 
country.
    Most of them are good, hardworking, patriotic people. They 
care. They work hard. But you have some bad apples at the EPA, 
and they are not being dealt with, and they are not being 
addressed.
    So I look forward to talking about this. The inspector 
general has done some good, quality work, he and his team.
    Again, we will continue to do this until we are convinced 
that the EPA has actually taken care of its problem.
    Today, the committee is exploring numerous cases of 
employee misconduct at the EPA. As the Committee on Oversight 
and Government Reform, in addition to the broad responsibility 
for conducting oversight of the executive branch, we are also 
the committee of jurisdiction for Federal employees, and it is 
our duty to explore the problems in the Federal work force.
    We have explored misconduct at the EPA before. Like I said, 
we will continue to do so until we are convinced there actually 
has been a change. Most notably, this committee examined the 
extraordinary case of John Beale. John Beale was a senior EPA 
employee--reporting to then EPA air office chief Gina 
McCarthy--who for years falsely claimed to be a CIA spy. Right 
under her nose, this went on for a long time. This person ended 
up going to jail, one of the few people who has actually been 
held accountable, having to go to jail, paying hundreds of 
thousands of dollars in restitution.
    But her supervisor got a promotion. She is now the EPA 
Administrator, and I have serious questions about her ability 
to actually administrate. When she had a small office, she 
couldn't do it. And now that she has a large one, these 
problems continue to persist.
    Unfortunately, Mr. Beale's fraud is not isolated. The head 
of EPA's Office of Homeland Security--this is the head of the 
EPA's Office of Homeland Security--had a lengthy record of 
sexual harassment that was not properly investigated.
    EPA's Region 5 was mired in allegations of sexual 
harassment and retaliation against those who tried to do 
something about it.
    Whistleblowers placed blame for Region 5's toxic culture 
squarely on former Region 5 Administrator Susan Hedman, who 
resigned under duress in the wake of the Flint water crisis.
    Remarking on this situation, an EPA union representative 
testified, ``There is a serious lack of accountability or 
transparency at EPA when a manager is the problem.''
    These incidents represent a systemic cultural problem and 
failure at the EPA. Recently, the EPA Inspector General's 
Office released details on investigations of more than 60--60--
cases of misconduct closed in the last several months. Many of 
these cases contain disturbing details.
    I recognize this is C-SPAN, and it's an early hour, but 
parents, be forewarned, this is not a subject for young kids at 
any hour. But nevertheless, we need to expose it in order to 
solve it.
    In one case, a convicted child molester--convicted child 
molester--was on EPA's payroll for years, even after the EPA 
learned of this offense. What is so terrible about this 
situation, it just cannot explain or justify, is the EPA knows 
that this person is a convicted child molester and yet the EPA 
put him in a position to interact with the public.
    He was out there literally interacting with the public. 
This person was found to have police sirens placed on their 
personal vehicle, on their personal car, lights and sirens, 
handcuffs, a counterfeit badge. It wasn't until a probation 
violation that it was actually highlighted and dealt with.
    In another case, an EPA employee was found to have stolen 
and pawned thousands of dollars of office equipment yet was not 
fired. She admitted taking, seven times, equipment in the 
office, taking it to a pawnshop, putting it in her pocket, and 
she is not fired.
    Mr. Meiburg actually oversaw this person, not directly, but 
it was in his team.
    It is just unbelievable this person was not fired after her 
felony theft conviction. She is still employed at the EPA to 
this day.
    We have a lot of good, hardworking people who want and need 
jobs, who will serve this country honorably. Why in the world 
should somebody convicted of stealing from work, a felony 
conviction, still enjoy the employment and being paid by the 
United States taxpayers?
    We have pages and pages of similar cases. One has to wonder 
if the EPA's culture and lack of accountability is a 
contributing factor to tragedies like the Gold King Mine spill 
or the Flint drinking water crisis.
    The status quo cannot continue, and the committee will 
continue to investigate the EPA until cultural changes and 
managers and employees are held accountable for their failures.
    People are going to make mistakes. We understand that. 
These are not mistakes. These are patterns of misbehavior that 
are unacceptable.
    I introduced a piece of legislation, H.R. 4360, which 
actually passed this committee and passed the House, the 
Official Personnel File Enhancement Act, which requires a 
Federal agency to record any adverse findings from resolved 
investigations into a separated employee's official personnel 
file.
    I hope this helps, so that these employees cannot just 
toggle from one agency to another without having their 
information shared with others.
    The bill prevents an employee facing disciplinary action 
from simply jumping ship to another agency that would not be 
aware of their negative disciplinary record.
    We have another case here, where there were devices and air 
cards that were used excessively. In one case, a person in one 
trip--I don't know how you do this--but in one trip, spent 
$18,000--$18,000--on one air card traveling, and no 
restitution, no paying back the government.
    We have the devices. We have $4,500 in personal 
international calls while on leave. What was the punishment for 
that? $4,500, the taxpayers have to pay that. What was the 
punishment? Counseling. Counseling was the punishment.
    So we have a lot to talk about. The inspector general has 
done a good job on this, and I look forward to a good, fruitful 
hearing.
    With that, we will now recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, I do thank you for holding today's hearing 
examining employee misconduct at the Environmental Protection 
Agency. This is the third hearing our committee has held on 
this topic this Congress, and I am encouraged that the EPA's 
response to allegations of employee misconduct has vastly 
improved.
    I, like you, want to be effective and efficient. I do not 
want to constantly hold hearings and hear about these problems. 
At some point, we should be able to get them resolved.
    Serious employee misconduct is, indeed, rare. But as this 
committee has seen, too often agencies and the inspector 
general responses to misconduct cases have taken far too long.
    At the committee's hearing in April 2015, a little over a 
year ago, I asked the EPA and the IG to work together to 
improve their coordination in employee misconduct matters. I 
did that, again, so we could be effective and efficient, to get 
things done as opposed to going around in a circle.
    I also directed my staff to work directly with the EPA and 
the IG to help develop new protocols to improve their 
disciplinary processes.
    As a result, the EPA and the IG are coordinating their 
efforts as they never did before. But as I often say, we can 
always do better. They are holding biweekly meetings to share 
information about investigations. We can do even better. They 
are communicating more frequently about administrative actions. 
They are sharing reports of investigations with agency managers 
and senior officials at the EPA headquarters, but we can always 
do better.
    The EPA and IG have developed expedited procedures for 
certain cases. The outcomes from improved coordination are, 
indeed, promising. Both the EPA and the IG have stated that the 
new procedures have decreased the time it takes for action on 
reports of employee misconduct.
    In his testimony, Mr. Meiburg from the EPA credits the new 
information-sharing process with contributing to EPA's taking 
action more quickly after the IG completes an investigation.
    Similarly, Mr. Sullivan from the IG's office agrees, and I 
want to thank you, Mr. Sullivan, for doing such a great job. He 
concluded--that is, Mr. Sullivan said--and I quote, 
``Misconduct cases are now being addressed faster and more 
consistently by the EPA management.'' But ladies and gentlemen, 
we can always do better.
    As I said, serious misconduct is rare, but we have to take 
it seriously. EPA reports that it has only 14 open employee 
misconduct reports of investigations from the IG. For an EPA 
work force of some 15,000, that is less than one-tenth of 1 
percent, but we can to better.
    This committee also has expressed concern about excessive 
use of administrative leave. That has been a major concern of 
the committee. In February, the agency issued a new policy on 
administrative leave. Under the new policy, an EPA employee may 
not--may not--be placed on administrative leave for more than 
10 days without approval from the Assistant Administrator of 
the Office of Administration and Resources Management. This 
policy introduces a check that addresses our concern about 
overuse of administrative leave, and the need for stronger 
oversight of this type of leave.
    Chairman Chaffetz indicated that the hearing today will 
focus on approximately 20 old cases that have been closed by 
the IG some years ago. As Mr. Sullivan states in his testimony, 
and I quote, ``It is important to note that most of the 
misconduct occurred at least 2 years ago.''
    In some of these cases, the misconduct is, in fact, 
egregious, and such behavior requires a swift and appropriate 
agency response. But none of these cases are currently pending. 
They are all closed.
    I want to be clear. I don't see anything wrong with looking 
back, because I think sometimes you have to look back so that 
you can effectively and efficiently move forward. We can learn 
from things that have happened, so I do not have a problem with 
that.
    According to the EPA and IG, all of these cases preceded 
the improved coordination process between the EPA and the IG.
    I hope that you, Mr. Sullivan, will address the difference 
you are seeing and the impact. Of course, I am sure you have 
your recommendations.
    Mr. Sullivan states that the new coordination process 
between the EPA and the IG should serve as, and I quote, ``a 
best-practices model for the Federal Government.'' So I am 
extremely pleased to hear that. It shows what we can do, if we 
work hard with the agencies and investigators to improve their 
procedures. This type of work does not always get the big 
headlines, but it makes a real difference.
    It also shows this committee what we can do through nuts-
and-bolts oversight.
    While I am encouraged by the progress that has been made, I 
believe that there are still challenges that we must and can 
and shall address.
    For instance, long investigations time in some cases may 
suggest a need for more resources for the IG. I just don't 
know.
    You will have to address that, Mr. Sullivan.
    There are certainly other cases that raise questions about 
when employees are required to report criminal convictions.
    Mr. Chairman, as we proceed, I hope that we can address 
these challenges together in a truly bipartisan way, like we 
have done over the past year, with input from the agency and 
the IG and the other stakeholders, because it is a fact that if 
we concentrate and try to get the IG and the agencies to work 
more closely together, I think we can get the kind of results 
that we are after. Again, we can be more effective and 
efficient.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Chairman Chaffetz. We will now recognize our witnesses. I'm 
pleased to welcome Mr. Stanley Meiburg, who is the Acting 
Deputy Administrator for the United States Environmental 
Protection Agency. We also have Mr. Patrick Sullivan, Assistant 
Inspector General for Investigations at the Office of Inspector 
General at the United States Environmental Protection Agency. 
He is accompanied by Mr. Allan Williams, the Deputy Assistant 
Inspector General for Investigation, whose expertise may be 
needed for specificity on certain topics during questioning.
    We want to thank you all for being here. We are going to go 
ahead and swear in Mr. Williams as well. Pursuant to committee 
rules, all witnesses are to be sworn before they testify, so we 
will also swear in Mr. Williams.
    If the three of you would please rise and raise your right 
hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    You have testified here before. I think you know the drill. 
We try to keep your verbal comments to 5 minutes, but we will 
give you great latitude today. After that, we will go to 
questions.
    So, Mr. Meiburg, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF STANLEY MEIBURG

    Mr. Meiburg. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, thank you for the opportunity to 
testify today before you about the Environmental Protection 
Agency's efforts to address employee misconduct.
    I am Stan Meiburg, and I have had the privilege of working 
at the EPA for nearly 40 years, holding positions at our 
headquarters in Washington, D.C., our regional offices in 
Atlanta and Dallas, as well as Research Triangle Park in North 
Carolina. For 18 years, I served as Region Four's Deputy 
Regional Administrator before retiring in early 2014.
    Since returning to the agency in October 2014, I have been 
honored to serve as Acting Deputy Administrator, discharging 
the duties of chief operating officer for the agency. Each day, 
I am reminded of the excellent work EPA employees do on behalf 
of the American people, from our engineers and scientists in 
the field to our technical experts and our lawyers here at 
headquarters.
    I am proud to be part of the agency and its mission to 
protect human health and the environment.
    In all workplaces, there are employees who engage in 
misconduct. Unfortunately, EPA is no exception. When such 
unfortunate instances occur, we are committed to holding our 
employees accountable. We have and will continue to work with 
the powers granted to us by Congress and the administrative 
tools at our disposal to ensure improper conduct is met with 
appropriate penalties, and that, conversely, excellence is 
recognized accordingly.
    But I must stress that the isolated misconduct of a few 
does not reflect and must not overshadow the dedication and 
hard work of over 15,000 EPA employees who commit themselves 
every day to the important work of the agency.
    Since my appearance before the committee last spring, we 
have made multiple positive changes to the EPA's management 
policies and procedures. EPA has taken measures to support our 
first-line supervisors who carry substantial responsibility in 
ensuring that misconduct is addressed promptly and 
appropriately.
    We have updated the first-line supervisor's toolkit and 
organized focus groups to ensure that we understand their needs 
in an overall effort to ensure that supervisors are able to 
take fair, legal, and effective disciplinary action for the 
betterment of the agency as a whole.
    In addition, earlier this year, as was noted in the ranking 
member's comments, the agency revised its policy on 
administrative leave, addressing a concern that this committee 
has raised in the past. The agency now demands additional 
justification and review for administrative leave requests and 
limits the time period of leave to 10 days, with limited 
exceptions, such as when an employee poses a danger to the 
agency and its employees.
    Finally, earlier this year, EPA Administrator Gina McCarthy 
issued an agency-wide elevation memo encouraging staff to raise 
issues of concern to managers and instructing managers to be 
receptive to these concerns. It is our hope that this 
directive, in conjunction with providing training and tools to 
our employees, will help our first-line supervisors to address 
misconduct quickly and effectively when issues arise.
    In addition to our own work, the EPA's Office of Inspector 
General plays a critical role in addressing misconduct and 
helping the agency operate at our best.
    As a result of the work of this committee and especially 
Ranking Member Cummings, we have improved our working 
relationship with the Office of Inspector General, which has 
enabled us to take more efficient administrative action. We now 
meet biweekly to discuss the status of pending OIG 
investigations into employee misconduct and have agreed upon 
procedures and timelines for effective information-sharing. 
These meetings and the improved bilateral communication 
contribute to the EPA taking action more quickly upon OIG's 
completion of its investigations and helps reduce the need for 
additional fact-finding by the agency in preparing 
administrative actions.
    In closing, EPA and its employees have spent nearly 5 
decades working to safeguard public health and the environment 
for the people of this country. I am proud of what we 
accomplish every day. On the rare occasions when misconduct 
occurs, we must address it appropriately.
    I look forward to discussing the progress that EPA has made 
in this regard with you today. Thank you for the opportunity, 
and I look forward to answering any questions you may have.
    [Prepared statement of Mr. Meiburg follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Chaffetz. Thank you. I appreciate that.
    Mr. Sullivan, you're now recognized.

                 STATEMENT OF PATRICK SULLIVAN

    Mr. Sullivan. Good morning, Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee. I am Patrick 
Sullivan, Assistant Inspector General for Investigations for 
both the EPA and the CSB.
    I'm happy to report that since I last testified before this 
committee in April 2015, the agency's internal adjudication 
process has dramatically improved. At the suggestion of both 
Chairman Chaffetz and Ranking Member Cummings, the OIG and the 
agency now meet biweekly about pending misconduct cases and 
their adjudication. These cases are now being addressed faster 
and more consistently by EPA management.
    I believe that this process can serve as a best-practices 
model for the Federal Government.
    Many allegations lodged against EPA employees are 
investigated by the OIG, and some are ultimately determined to 
be unsupported. OIG investigations often clear an individual. 
Our job is to collect and present the facts in a fair and 
unbiased manner. We are just as proud of our work in the cases 
that clear an employee as we are when our work leads to a 
criminal conviction.
    Now I would like to briefly discuss a few significant 
cases.
    In 2014, the OIG Seattle field office special agents 
interviewed an EPA contractor who had previously worked for EPA 
for the past 20 years. Stating he was addicted to pornography, 
he admitted to viewing pornography on his government-issued 
computer for the last 18 years. In the past year, he watched 
pornography at least 1 to 2 hours per day.
    He avoided detection for many years because he used 
commercial software to scrub his computer. He also accessed 
pornographic sites using search engines hosted in a foreign 
nation.
    The contractor was fired by his company. The OIG was 
successful in recovering $22,000 in repayments, the amount of 
time that the contractor viewed pornography. And the OIG made 
EPA aware of network vulnerabilities that enabled the 
contractor to avoid detection for 18 years.
    In 2013, the OIG was notified by the U.S. Attorney's Office 
in Connecticut that a special agent assigned to the EPA's 
Criminal Investigation Division in New Haven may have been 
engaged in a Ponzi scheme. The special agent's name had 
surfaced on the prosecution of the ringleaders of a four-level 
pyramid scheme involving gifting tables. New participants in 
this scheme would pay a $5,000 gift to the person occupying the 
top level.
    The OIG investigation determined that the EPA CID special 
agent had made a false statement on a required financial 
disclosure form wherein she concealed the fact that she had 
received $2,500 in cash from her participation in the scheme.
    In 2015, the special agent retired from the EPA. She 
subsequently pleaded guilty to one felony count of making false 
statements, and she was sentenced to 1-year probation and 
ordered to pay $8,000 in fines and restitution.
    In 2013, an OIG Special Agent in the Atlanta field office 
proactively checked a list of EPA property reportedly lost or 
stolen through a law-enforcement database. This search resulted 
in a hit on an EPA digital camera pawned in Decatur, Georgia. 
The subsequent OIG investigation revealed that, on several 
occasions, an EPA employ pawned EPA cameras and camcorders at 
the pawnshop, resulting in a loss to the government of $3,117.
    The U.S. attorney declined Federal prosecution. However, we 
were successful in presenting the case to a local prosecutor, 
and the employee pleaded guilty and was sentenced to 3 years of 
probation and ordered to pay restitution. This was a felony 
conviction.
    The employee's supervisor proposed suspension of the 
employee for 120 days. Following an appeal by the employee, the 
Region Four Deputy Administrator downgraded the suspension to 
30 days.
    In 2006, the OIG Dallas field office was informed that a 
civilian employee was cited by the Dallas police for improper 
use of emergency lights on his personal vehicle while also 
being a registered sex offender. He had previously been 
convicted in 1997 for indecent acts with a minor. The EPA 
employee also possessed an imitation badge, which accompanied 
his CPA administrative credentials, which were displayed by the 
employee to the police officer.
    In 2006, the U.S. attorney declined to prosecute the EPA 
employee for false impersonation of a Federal officer and for 
possession of the imitation badges. The EPA then imposed 
discipline in the form of a 60-day suspension.
    In 2013, the Dallas police sex offender unit requested 
assistance from the OIG in arresting the same EPA employee for 
violation of probation. He was arrested on a probation 
violation charge.
    The OIG also developed information that the employee may 
had viewed and possessed child pornography on his EPA computer. 
However, an examination of his computer revealed no evidence of 
this.
    The employee was terminated from his employment with the 
EPA. Subsequently, the Merit Systems Protection Board 
overturned the employee's termination and ordered that he be 
rehired by the EPA.
    In 2015, the employee entered into a settlement agreement 
in which he agreed to resign from the EPA in exchange for 
certain considerations.
    In closing, I would like to say that we in the OIG pledge 
that we will continue to work closely with the agency, the 
Department of Justice, and Congress to ensure that allegations 
of misconduct are quickly and properly addressed. We appreciate 
your continued interest in the work of the OIG.
    Mr. Chairman, that concludes my prepared statement. I'll be 
happy to answer any questions. Thank you very much sir.
    [Prepared statement of Mr. Sullivan follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Chaffetz. Thank you. I will now recognize myself 
for 5 minutes.
    Let's go back to that most recent case with the child 
molester. Conclude that part about the Merit Systems Protection 
Board. I mean, based on the brief evidence that you shared with 
us, the scenario of the case, what were the other 
considerations that he got in order to resign from the EPA?
    Mr. Sullivan. He received a cash settlement of $55,000, I 
believe. I will have to check ----
    Chairman Chaffetz. The American people paid him $55,000 to 
walk away?
    Mr. Sullivan. Yes. But the IG is not part of those 
negotiations.
    Chairman Chaffetz. I'm not blaming you. You are the ones 
who actually highlighted this.
    Mr. Meiburg, it is hard to hold you personally responsible 
for that, but we had to pay $55,000 to this person?
    Mr. Meiburg. Mr. Chairman, in this particular case, which I 
am generally aware of, the case, as Mr. Sullivan noted, was one 
where we had proposed removal and, in fact, took removal action 
and were reversed by the Merit Systems Protection Board.
    Chairman Chaffetz. How do you lose that case?
    Mr. Meiburg. It is a complicated case. I'm not going to try 
to go into all the details. But the Merit Systems Protection 
Board found that the basis for the removal was not sustained, 
so they reversed it.
    Chairman Chaffetz. I mean, it is just pretty stunning, 
isn't it? I mean, what needs to change?
    You both are close to this situation. What needs to change? 
How do we need to change the Merit Systems Protection Board?
    What is not happening is we are not protecting the American 
people and the taxpayers, and we are not protecting the 
employees that have to sit by this freak of a pervert. We are 
not protecting them.
    So how do we protect the employees of the EPA and the 
American taxpayers? What do we need to do at the Merit Systems 
Protection Board to get them to make the changes?
    Mr. Meiburg. Congressman, I would simply note a couple 
things. One is that we share your desire to protect our own 
employees from any adverse actions by other employees, so that 
is a clear area where there is agreement.
    Chairman Chaffetz. And how is it that this person can 
operate in this atmosphere for so long? In the case of Dallas, 
how is it--Mr. Sullivan, you have looked at this case closely. 
How is it that this goes undetected for so long and it wasn't 
in our system?
    Mr. Sullivan. It didn't go undetected. It was just that it 
was not reported to the IG.
    In 1999, our investigation revealed that the management in 
Region Six in Dallas, the EPA management, found out about his 
conviction. At that time, he was stopped again by the police 
for using lights and sirens. I don't know about the sirens. I 
know about the emergency lights. That was brought to the 
attention of EPA management. He was counseled and told not to 
do that again, but it was never brought to the attention of the 
IG in 1999.
    Chairman Chaffetz. What was his position back in 1999? What 
was he doing?
    Mr. Sullivan. He was an enforcement officer doing civil 
inspections for the EPA.
    Chairman Chaffetz. So his job would be to do what?
    Mr. Sullivan. To go out to a site to determine if there are 
any environmental violations.
    Chairman Chaffetz. So we are putting him out there, 
interacting with the public.
    Mr. Meiburg, how does this happen? If you know that this 
person has to register as a sex offender, why do you put them 
in a position to have to interact with the public?
    Mr. Meiburg. Mr. Chairman, I don't believe there is any 
particular rule that says that if an employee is convicted of a 
crime, in general, that they then have to report that to the 
agency.
    Chairman Chaffetz. Should that be the case? Should they 
have to report, ongoing?
    Mr. Meiburg. Mr. Chairman, I think that is an important 
issue. We are happy to work with you and the Office of 
Personnel ----
    Chairman Chaffetz. I am just asking your personal opinion. 
Do you believe, if you are convicted of a felony ----
    Mr. Meiburg. Mr. Chairman, again, I am here in my official 
capacity.
    Chairman Chaffetz. Okay.
    Somebody who is convicted as a sex offender, is there an 
internal policy to prohibit those types of perverts from 
interacting with the public in person?
    Mr. Meiburg. Mr. Chairman, we have asked that question, and 
we do not believe that we have the authority to institute a 
policy to that effect. We are not different from other agencies 
in that regard.
    But it is an important issue, and we agree with you on 
that.
    Chairman Chaffetz. All right, somebody here on this panel 
better sponsor a bill to get rid of perverts interacting with 
the public, because this is not acceptable. If somebody comes 
with the authority of the EPA badge, and then they have sirens 
or lights on their car, and they are a registered sex offender, 
I mean, can you see the disconnect, why people would be 
outraged if they showed up at your place of business or work or 
some mom with her young child, and suddenly you encounter this 
person? How do you stand for that?
    Mr. Meiburg. Mr. Chairman, again, certified badge law 
enforcement officials have special responsibilities, even more 
so than ordinary EPA employees ----
    Chairman Chaffetz. I cannot believe you lost that case. 
Part of me thinks we are going to have to work here--let's get 
the Merit Systems Protection Board up here to start explaining 
themselves, how in the world they think this is in the best 
interest of the United States of America.
    My time has expired. We will now recognize Ms. Watson 
Coleman for 5 minutes.
    Ms. Watson Coleman. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for being here.
    A lot of these cases, all the cases that we are discussing, 
were either resolved in 2014 or 2015, so these are kind of old 
cases, right? So since then, we have had changes in our 
policies and practices at the EPA that would at least address 
allegations of misconduct that come before them in terms of 
resolving them and as well as administrative leave policies. Is 
that not correct?
    Mr. Meiburg. Yes, Congresswoman, that is correct. We feel 
like, in the last year, we have made considerable progress 
moving forward.
    I would agree with the ranking member that we can always do 
better, but we feel like we have made considerable progress in 
having better communication with the Office of Inspector 
General and clearer policies on the use of administrative 
leave.
    Ms. Watson Coleman. Could you explain sort of briefly what 
specifically has changed that you have informed the rank and 
file, and the supervisors, and what is the process for holding 
them accountable, aside from just interacting with the OIG?
    Mr. Meiburg. The interaction--it is in so many ways all of 
one piece. We discussed with all of our employees the 
importance of first-line supervisors and their responsibilities 
in conduct and discipline cases.
    We also again, as I mentioned, on the administrative leave, 
made sure that this cannot be used. And the use of 
administrative leave has been curtailed for more than 10 days, 
which was a concern of this committee.
    But the interaction involving the inspector general has 
been tremendously important because we refer cases to the 
inspector general when we have evidence of misconduct, and ask 
the inspector general to investigate them. It is very helpful 
in the course of that investigation to have the interaction we 
now do, so that we can be clear that when we get information, 
as quickly as possible, we can move on it.
    Ms. Watson Coleman. Thank you.
    Mr. Sullivan, are you feeling that this interaction is 
helping to create a better environment, a more protective 
environment, and a more accountable environment in the EPA?
    Mr. Sullivan. Yes.
    Ms. Watson Coleman. Once you do an investigation, once 
something has been referred to you and you do an investigation, 
in addition to your findings, do you make any recommendations 
back to the EPA about the employee that has been investigated?
    Mr. Sullivan. As the head of investigations for the EPA, we 
do not make recommendations in our investigative reports. 
However, our auditors and evaluators make recommendations as 
part of their job. But that is a different part of the IG.
    So in a typical misconduct investigation, we report the 
facts and just the facts, and we would not make a 
recommendation.
    Ms. Watson Coleman. So you would report the facts to the 
EPA, plus the auditing?
    Mr. Sullivan. It depends. If we saw a systematic problem or 
a problem that was crosscutting, for example, in the Beale 
investigation, we determined that, from the investigator's 
standpoint, that there were some safeguards that were not being 
followed. For example, they were batch approving Mr. Beale's 
T&A, time and attendance, every week, which was a 
vulnerability. So we reported that to our auditors, and they 
did an audit.
    But normally, in our investigations, ma'am, we just report 
the facts concerning the specific allegation before us.
    Ms. Watson Coleman. Do you feel that we have sufficiently 
moved in the right direction with the EPA holding people 
accountable and developing the kind of information-sharing 
system and accountability system that will mitigate these kinds 
of cases in the future?
    I'm not talking about the one about whether or not the 
individual who was a convicted sex offender should be hired and 
if so, under what conditions, but otherwise.
    Mr. Sullivan. Otherwise, I could tell you that in the past 
year, as Mr. Meiburg alluded to in his testimony, and in mine, 
by meeting biweekly, we have streamlined the process and we 
have broken down some barriers, and we have touched each other 
as human beings and managers addressing a problem.
    Again, I want to make it crystal clear what our role is and 
the IG Office of Investigations. We just report the facts. We 
have nothing to do with the ultimate disciplinary process.
    Ms. Watson Coleman. I just have one quick question. Both of 
you can answer quickly, hopefully.
    Are there other things that should be happening either the 
EPA, on your side as a manager of the organization, or from 
your observation as the IG looking into the organization? Have 
you discussed those things? Are there things in the works now?
    Mr. Meiburg. Yes, I will cite one thing that we have in the 
works. We are trying to get additional employee labor relations 
support to our first-line supervisors and make sure they have 
good information on cases that may have come up in the past 
that are similar to ones they might face, because fortunately 
for most of our first-line supervisors, a conduct and 
discipline case is a very rare thing. So when one comes up, we 
want to make sure they have a context for whatever action they 
may take.
    Ms. Watson Coleman. Thank you.
    Mr. Sullivan, do you have anything to say to that in 2 
seconds?
    Mr. Sullivan. Yes, ma'am. We do not have enough agents to 
do the investigations. In the past 5 years, we have gone from 
360 FTE authorized to 289. I personally lost 15 to 20 agents 
that can no longer work cases. So I'm always trying to play 
catch-up.
    Ms. Watson Coleman. I hope you have less cases that you 
have to investigate. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gosar. [Presiding.] I thank the gentlewoman.
    The gentleman from Florida, Mr. Mica, is recognized for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman. It is good to hold this 
hearing and review some of the conduct of some of the employees 
of the EPA with important responsibility in that agency to 
carry out.
    I had the opportunity to chair civil service on this 
subcommittee on this panel some years ago. I am a supporter of 
the civil service system, and it was set up decades and decades 
ago to protect civil servants, public employees, from abuse, 
being politically abused, being relieved of their positions.
    Isn't that pretty much the case, Mr. Meiburg and Mr. 
Sullivan?
    Mr. Meiburg. Yes, Congressman, it is. That is very 
important that we make sure that the system is not subject to 
----
    Mr. Mica. Not rigged to take hardworking people and cast 
them out on some political basis. I think that should be 
protected.
    However, the reports we have here, I have 12 pages of some 
of the most egregious abuses. I can't find any instance in 
which anyone was fired.
    Did you say there were 15,000 EPA employees? Is that 
correct? More than that?
    Mr. Meiburg. Yes, that is correct.
    Mr. Mica. Did you say, Mr. Sullivan, you have 280 
investigators?
    Mr. Sullivan. No, sir. We had a 360 5 years ago. Now we are 
down to 289.
    Mr. Mica. Two hundred eighty-nine staff. What do they do?
    Mr. Sullivan. We have investigators.
    Mr. Mica. So they investigate ----
    Mr. Sullivan. Some auditors and evaluators.
    Mr. Mica. They are looking at and reviewing the conduct of 
the 15,000 EPA employees?
    Mr. Sullivan. I have 50 agents right now with that ----
    Mr. Mica. Fifty, okay. Last year, 2015, how many people 
were fired from EPA?
    Mr. Sullivan. I would have to defer to Mr. Meiburg.
    Mr. Mica. Mr. Meiburg, how many were fired?
    Mr. Meiburg. I don't know.
    Mr. Sullivan. Were any ever fired for misconduct?
    Mr. Meiburg. Yes.
    Mr. Mica. Can you supply--do you think it is more than just 
my fingers and my toes?
    Mr. Meiburg. Congressman, I want to be clear about my 
answer.
    Mr. Mica. I tell you, nobody here got fired. The only one 
actually dismissed was a contractor.
    What is troubling is some of the offenses. I just heard the 
deal cut to pay $55,000 in a settlement.
    Is that true, Mr. Sullivan? You said you were not involved 
in the settlement.
    Mr. Sullivan. That is correct. From my ----
    Mr. Mica. Was that the pedophile?
    Mr. Sullivan. Yes. That was child molester.
    Mr. Mica. So we are paying child molesters $55,000. Nobody 
gets fired.
    Now here's one, an EPA official in Washington, GS-15. GS-15 
in D.C., he's getting a minimum of $125,000 a year.
    This guy sat around for years, the past several years, and 
watched porno, getting $125,000. Actually, I think he is still 
on the job. It must be a great job where you can just sit 
around and collect $125,000 a year.
    Here's a $90,000 GS-13, at least $90,000 a year in D.C., a 
search of the employee's EPA-issued computer found 507 
pornographic images as well as a graphic pornographic story 
written by the employee containing description of--I won't go 
into all that for public consumption here.
    The employee was issued a notice of proposed removal but 
retired.
    So nobody gets fired. The way out is most people retire.
    The civil service was not set up to protect these folks. It 
was to protect folks against political manipulation.
    This has to be demoralizing to thousands and thousands of 
hardworking EPA officials to see these people who either are 
involved in misconduct, misappropriate--they were stealing 
money. And I can't find a single instance in which anyone was 
fired. They mostly retired.
    And when they retire, they get a pretty good retirement, 
don't they? They get their regular retirement. There is no 
penalty to their compensation when they retire, is there?
    Mr. Meiburg. Congressman, under current law, there is no 
penalty. People can retire or resign ----
    Mr. Mica. That is the M.O. You steal. You sit around and 
watch porno. You get convictions outside. And you either 
voluntarily resign and go to retirement, but nobody gets fired.
    I yield back.
    Mr. Gosar. I thank the gentleman from Florida.
    I recognize the gentleman from Maryland, Mr. Cummings, for 
5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Let me try to understand, Mr. Sullivan. There are 14 open 
cases. Is that right?
    Mr. Sullivan. That is not 100 percent accurate, Mr. 
Cummings. We have 14 cases pending at the agency in which we 
have already submitted the report of investigation. We have 
many, many more in the pipeline that we have not yet written a 
report of investigation, so we have approximately 90 pending 
misconduct cases right now.
    Mr. Cummings. Okay. The reason I asked that is because I 
said to myself, you talked about the agents that are available 
to investigate, and I was saying to myself, with 14 cases, I 
know it takes a lot of manpower--but you have about 90 cases 
that you are actually involved in?
    Mr. Sullivan. Yes, Mr. Cummings. But we also have an excess 
of 150 additional cases, 97 fraud cases, contracting grant 
fraud, plus we have a number of threat investigations, a number 
of theft investigations, some assault investigations. So it 
runs the spectrum.
    But for the misconduct, we have currently 90 pending cases, 
14 of which have already been presented to the agency and are 
awaiting adjudication. The other 76 are in various processes of 
us investigating.
    Mr. Cummings. Now when we have a situation where somebody 
is hired and then commits a serious felony, do they have a duty 
to report? Now, they are already hired.
    What is the situation there? And where do we draw the line 
there?
    Mr. Sullivan. Mr. Cummings, it is my understanding that for 
most EPA employees, there is no requirement to report either an 
arrest or conviction. Obviously, if you are a law enforcement 
officer like myself, you must report. If you are an attorney, 
you must report. If you work for the IG, you must report. Or if 
you have a security clearance, you must report an arrest or 
conviction.
    But short of that short list, I do not believe there is any 
requirement for any EPA employee to report either an arrest or 
conviction.
    Mr. Cummings. Do you have an opinion on that? I am just 
wondering, because I know one of the cases had a situation 
where somebody was convicted after they were hired, with no 
duty to report.
    It is very interesting because when I practiced law, I saw 
a lot of cases, not government cases, but others, where people 
failed to report and they were immediately fired when they 
found out.
    Are there other agencies where the list is longer than that 
three?
    Mr. Sullivan. Yes, Mr. Cummings. For myself, I have been a 
Federal enforcement officer my entire adult life, and I have 
worked for the FBI and Secret Service and the Federal Air 
Marshals. In those agencies, you absolutely have to immediately 
report an arrest and certainly a conviction. Whether you are 
carrying a gun or you are a civilian employee in those 
agencies, you have to report.
    So I was little bit surprised when I came to EPA and I 
learned that rank-and-file EPA employees did not have to do 
that. I've accepted that as the rule, but I was a little 
curious as to why, just for the sake of knowing--if you put 
trust and confidence in a particular employee, it may affect 
your judgment or your decision-making if you knew the person 
was just convicted of, say, theft or embezzlement in their 
private life.
    Mr. Cummings. Tell me this, we were just talking about a 
case where somebody received some kind of counseling. When you 
look at the counseling situation there at EPA, do you think it 
is helpful? Did you think it is strong enough?
    And maybe Mr. Meiburg can answer this. What triggers 
counseling? In other words, how do I determine whether somebody 
should have counseling and that be a part of keeping them on?
    I know you do not have a lot to do with the final say, Mr. 
Meiburg.
    Mr. Meiburg. Thank you, Ranking Member.
    The short answer is it depends on the case and what the 
nature of the offense is. If it was an offense that was created 
out of ignorance or simply the employee did not know what a 
rule was, then counseling may be appropriate. But each one of 
those cases has to be evaluated on its own merits based on the 
facts of the case and the applicable law and regulations.
    Mr. Cummings. Mr. Sullivan, time is running out, but Ms. 
Coleman asked you all about where we go from here.
    Tell me clearly, what would you like to see done so that we 
can be effective and efficient and so that we can basically put 
you out of a job?
    Mr. Sullivan. Mr. Cummings ----
    Mr. Cummings. I am not trying to get rid of you, but you 
understand what I'm saying.
    Mr. Sullivan. Thank you, sir. I appreciate that.
    I am concerned that when we have an investigation and 
because I don't have enough special agents to expeditiously 
investigate allegations, we eventually get to them, but the old 
saying of ``justice delayed is justice denied,'' I am very 
concerned that I do not have enough agents to adequately and 
immediately address some of these allegations.
    That is why I have so many cases in the pipeline. If you do 
the math, in my Office of Professional Responsibility, which is 
a special unit I have at headquarters doing essentially GS-15 
and SES and political appointees, they average 9.5 cases each. 
The agents in the field average approximately seven cases each. 
A lot of those cases in the field are multimillion-dollar fraud 
investigations that are very involved.
    So I simply do not have enough agents to expeditiously 
investigate every case that I have on my plate.
    Mr. Cummings. Will you continue to work with us to try to 
come up with solutions to the problems? I got the money piece. 
I agree with you. But you and Mr. Meiburg have been wonderful 
with regards to sitting down and trying to work out things. 
Will you continue to do that, sir?
    Mr. Sullivan. Absolutely. It is beneficial to both my 
office and to the agency as a whole because we can move things 
down the field much quicker.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Gosar. I thank the gentleman from Maryland.
    The gentleman from Georgia, Mr. Hice, is recognized for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Several of the cases of employee misconduct that have been 
reported from the IG took place in the Region Four, where you, 
Mr. Meiburg, were the administrator.
    One of the cases in particular that is on my mind took 
place on your watch, referring to a GS-12 employee making over 
$100,000 a year who was found to be stealing thousands of 
dollars of property from the EPA. In fact, the individual pled 
guilty to felony theft and was placed on 3 years' probation 
but, astonishingly, only received only 30 days' suspension by 
the EPA.
    Mr. Meiburg, my obvious question is, how in the world can 
an employee be found guilty and admit to felony criminal 
charges of stealing from the EPA and not be fired?
    Mr. Meiburg. Congressman, I will speak to that case since, 
as you note, I was the deciding official.
    I want to be clear that there is not a question that what 
the employee did was wrong. What the employee did was wrong, 
and she needed to be held accountable for doing something 
wrong.
    When a case comes forward ----
    Mr. Hice. It was criminal.
    Mr. Meiburg. The criminal conviction, the settlement in the 
court case, occurred after we took disciplinary action. There 
are two paths, as you probably know, whereby you can go on 
this. One is the path of administrative discipline, and the 
other is potential referral to either the U.S. attorney or to 
local authorities, which occurred in this case.
    At the time we took administrative discipline, the question 
before us was what was appropriate administrative discipline, 
given the information we had from the investigation report, 
which we did.
    Mr. Hice. So it is astonishing to me that a 30-day 
suspension is all that someone gets for even pleading guilty of 
felony theft.
    We have the taxpayers on the hook for this type of 
behavior.
    So you were the administrator. Were you involved in the 
determining the disciplinary action?
    Mr. Meiburg. Yes. I was the deciding official in that case.
    Mr. Hice. So in deciding on that case, you are saying that 
you were not aware of the criminal charges when you made the 
final decision?
    Mr. Meiburg. I was generally aware that there was a 
possibility of a proceeding, but I did not know what the 
outcome of that was.
    Mr. Hice. But you were aware of thousands of dollars that 
had been stolen?
    Mr. Meiburg. I was aware of approximately $3,000 in camera 
equipment had been pawned and then lost to the agency through 
that transaction.
    Mr. Hice. And in your determining decision, that was only 
worth a 30-day suspension?
    Mr. Meiburg. There were many factors. In any individual 
case, there are many factors that the deciding official uses. 
They are generally referred to as the Douglas factors. But 
there are many factors that the deciding official uses in 
deciding what an appropriate penalty would be. I am obligated 
by law to consider all of those in reaching a decision on the 
penalty.
    Mr. Hice. It is just amazing to me that the agency doesn't 
do more to punish people who are stealing from the agency, who 
even plead guilty to criminal theft, and they still have the 
right and privileges on the shoulders of taxpayers to continue 
working for the agency. I just cannot wrap my right mind around 
this.
    This committee has heard time and again of the EPA 
literally plagued with constant employee misconduct. And yet at 
the same time, the EPA routinely goes after businesses across 
this country for much less serious offenses and throws fine 
after fine after fine to businesses that often are doing 
virtually nothing in comparison.
    I mean, we hear stories of businesses all the time for 
slight infractions getting serious fines. Yet here we have the 
EPA in a double standard, having employees involved in criminal 
behavior, and they just get 30-day suspensions or less. It is 
an absolute hypocritical double standard.
    It is disgusting not only to me to hear these kinds of 
things, but the American people are fed up with this kind of 
stuff. They get slapped time and time again with fines because 
a ladder is in the wrong place or whatever the slight 
infraction may be. Yet you guys are putting up with this.
    The state of affairs at the EPA is totally unacceptable, 
Mr. Chairman. I just believe that if the EPA wants the trust of 
the American people and this committee, they have a long way to 
go to get their house in order.
    I yield back. Thank you.
    Mr. Gosar. I thank the gentleman from Georgia.
    The gentleman from Georgia, Mr. Carter, is recognized for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Sullivan, in March 2014, an EPA employee was arrested, 
jailed, and indicted for marijuana possession. It is my 
understanding that this particular employee had a grow 
operation and was arrested on felony possession charges.
    In fact, I believe you highlighted this in your November 
2015 report on the EPA's use of taxpayer dollars for extended 
administrative leave for employees who had been suspended for 
misconduct.
    According to that report, this employee was placed--Mr. 
Meiburg, are you listening?
    According to that report, this employee was placed on 
administrative leave for 7.5 months. Is that correct?
    Mr. Sullivan. Yes, sir, Mr. Carter.
    Mr. Carter. Tell me that is not correct.
    Mr. Sullivan. No, it is correct, sir.
    Mr. Carter. It is correct?
    Mr. Sullivan. Yes.
    Mr. Carter. Okay. Again, he was charged with felony 
possession. He had a grow operation, and he was put on 
administrative leave and paid for 7.5 months.
    Mr. Sullivan. Yes, sir.
    Mr. Carter. As I understand it, the EPA policy only allows 
for 10 days of administrative leave when employees committed a 
crime for which they could be imprisoned. Is that correct?
    Mr. Sullivan. That is correct, but that is the new policy, 
Mr. Carter. I will defer to Mr. Meiburg. The 10- day ----
    Mr. Carter. I will get Mr. Meiburg.
    Mr. Sullivan. It is a new policy.
    Mr. Carter. A new policy implemented after this?
    Mr. Sullivan. Yes.
    Mr. Carter. Okay, so it didn't apply then?
    Mr. Sullivan. No. The 10-day limit did not apply then.
    Mr. Carter. So that is why we paid him for 7.5 months.
    Mr. Sullivan. Well, I cannot explain why. Again, we were --
--
    Mr. Carter. I'm sure. Even if you could, I could not 
understand why.
    Mr. Meiburg, what would the EPA do this? Explain to me 
that. Why would you do this?
    Mr. Meiburg. Congressman, I cannot speak to the particulars 
on this case and what judgments were made on an individual ----
    Mr. Carter. Well, who can? We need them here.
    Mr. Meiburg. That would have to be the regional office 
where this event occurred. I will say ----
    Mr. Carter. Who makes these decisions? Do you know who we 
need here? We need somebody who we can fire. That is who we 
need here. Who makes this decision? Who made that decision?
    Mr. Meiburg. Decisions on conduct and discipline are taken 
by proposing officials who usually are the employee's 
supervisor or their division director in the region. Then a 
final decision is made usually by a deputy regional 
administrator, who is a career appointee.
    Mr. Carter. And who do they answer to?
    Mr. Meiburg. The answer to a regional administrator.
    Mr. Carter. I think you said the magic words, ``career 
appointee.'' I think that was probably the answer to the 
question. ``Career appointee.''
    Let me ask you, Mr. Meiburg, I've been sitting here 
listening, and it seems, with all due respect, sir, it seems 
that you are just matter of fact, ``Yes, that's right. And 
that's the way it's supposed to be.''
    In the report, the November 2015 report, Mr. Sullivan, did 
you not indicate that EPA needed to change some of their 
policies and protocols?
    Mr. Sullivan. To be correct, that was an audit report, but 
yes, recommendations were made.
    Mr. Carter. Mr. Meiburg, have you done that?
    Mr. Meiburg. Yes, indeed, we have.
    Mr. Carter. Are they ready?
    Mr. Meiburg. They are being implemented.
    Mr. Carter. They are being implemented. When will they be 
implemented?
    Mr. Meiburg. No, they are being implemented now.
    Mr. Carter. Now? So they are in place now?
    Mr. Meiburg. Yes. On the policy, to be specific, the policy 
on administrative leave, to limit administrative leave in any 
case to 10 days, unless there is approval by the Assistant 
Administrator for the Office of Administration and Resources 
Management under very, very ----
    Mr. Carter. Okay, I am okay with that, because this is the 
only time something like this happened. It only happened once, 
and then we corrected it. Is that right, Mr. Sullivan?
    Mr. Sullivan. No, there was massive abuse with 
administrative leave prior to the changing of the rules. Our 
audit report pointed that out.
    Mr. Carter. Mr. Meiburg, have you ever worked in the 
private sector?
    Mr. Meiburg. Not for many years. I thought I was going to 
have that opportunity following May 2014, but it didn't work 
out that way.
    Mr. Carter. I suspect there is a story there.
    Seriously, do you think they would tolerate this in the 
private sector?
    Mr. Meiburg. I cannot speak to comparability in the private 
sector. I know in the ----
    Mr. Carter. I can because I am in the private sector, or I 
was. I guess I'm not now. But I was.
    But you know, I mean, my colleague just made the point. You 
go and fine people--we got the answer today as to why they are 
being fined, because we have to pay people on administrative 
leave who have been charged with felonies. That is why you are 
getting fined for that ladder being in the wrong place.
    I got the answers I needed today. Thank you, both. That is 
exactly what I needed to know.
    Mr. Chairman, I yield.
    Mr. Gosar. I thank the gentleman from Georgia.
    I recognize Ms. Lawrence from Michigan for her 5 minutes.
    Ms. Lawrence. Thank you.
    We have heard discussion today about the new process for 
information-sharing at EPA and the dramatic improvement in 
management's response to misconduct. I want to applaud the 
agency and the IG for your work to streamline the disciplinary 
process.
    Our hearings on the Federal work force often focus on, 
especially in this committee, on the negatives, so it is good 
to hear about the positive changes that are occurring. Many of 
the failures that we have been hearing about were prior to the 
changes, so I do applaud you.
    I want to focus on another policy change that took place in 
EPA regarding administrative leave.
    I also want to note that this is the sixth hearing that 
this committee has held over the past two Congresses on the 
management of employee misconduct issues at EPA.
    Mr. Meiburg, I am saying that right?
    Mr. Meiburg. ``Meiburg.''
    Ms. Lawrence. ``Meiburg.''
    I am pleased to hear that the new policy increases 
oversight over the placement of employees on administrative 
leave during misconduct investigations and adjudications. The 
new EPA policy also requires managers to document alternatives 
to administrative leaves that were considered and why they were 
deemed not feasible. Is that correct?
    Mr. Meiburg. Yes, that is correct, Congresswoman.
    Ms. Lawrence. So would you tell me today and enlighten us, 
what alternatives should managers consider before placing an 
employee on administrative leave?
    Mr. Meiburg. Managers should consider alternatives about 
what other kind of work the individual could be doing instead 
of their regular duties, if it turns out that the investigation 
will impede their ability to conduct their regular duties. So 
that would be the first place that you would like, to find work 
that they can do while the proceeding is occurring.
    Ms. Lawrence. Do you expect this new policy to reduce the 
amount of time that employees are placed on administrative 
leave? Is that the goal?
    Mr. Meiburg. Yes, indeed, it is. We have been very 
sensitive to the comments from members of this committee about 
concern about the abuse of administrative leave, and we want to 
curtail that practice.
    Ms. Lawrence. Okay, so now this policy has been in place 
since February. Am I correct?
    Mr. Meiburg. That is correct.
    Ms. Lawrence. So have you seen any difference? Has there 
been a reduction?
    Mr. Meiburg. We have seen a pretty dramatic difference. 
Since the policy was put in place, we have had only two 
requests that have come forward. The fact that requests are not 
coming forward by itself is a good sign that the policy is 
going into place.
    Of the two requests that came forward, one was approved 
because of a risk to the safety of EPA employees and the other 
was denied.
    Ms. Lawrence. I often like to interject into these 
conversations that I served in a Federal agency and was in 
H.R., labor relations. And you really have the responsibility 
of looking at how you deal with separating inappropriate 
behavior, but respecting the rights of an employee. It is a 
delicate mix. You have to hold employees accountable.
    I can tell you, sitting here today, I want employees held 
accountable. It is our expectation of our public. But every 
employee is a citizen of these United States. They have rights. 
And the agencies should have, and I am glad to hear that you 
reviewed these processes to make sure they are consistent, that 
they are not up to the whim of the manager, and that we hold 
people accountable, basically, who are there to do the work 
that my tax dollars and every other American expects to happen 
in this agency.
    So I will continue--I hope we do not have to have six more 
hearings on this. But I will continue to stay focused in 
looking at what we are doing.
    Mr. Meiburg, I expect you to continue to monitor this and 
be proactive and make sure that EPA, with all the budget cuts 
that we are doing here, that EPA is doing the work that we need 
them to do to protect our environment.
    Thank you so much.
    Mr. Meiburg. Thank you.
    Mr. Gosar. I thank the gentlelady from Michigan.
    I recognize the gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Meiburg, I think we have pretty well covered some of 
the problems at the EPA regarding sexual misconduct, but there 
are other forms of employee misconduct that I want to address, 
specifically about an investigation that is going on in the 
Birmingham, Alabama, area involving the EPA, in which EPA 
employees I think have acted improperly in conducting the 
investigation, specifically, seeking access to property without 
getting the permission of the owner and actually intimidating 
people who are occupying houses on the property.
    I have an affidavit here, which one of these people who 
reside on the property made these allegations: Officials at the 
U.S. Environmental Protection Agency, EPA, approached me to 
seek permission to test the property. The EPA officials 
presented me with a document to sign to allow them to sample 
the yard. The EPA representative was acting very intimidating 
and informed me that I needed to sign the release even though I 
did not own the property, which is a clear violation. I felt 
very intimidated and compelled to sign the release even though 
I did not want to do so. Upon signing the release, I asked the 
EPA official what was so urgent in trying to obtain access to 
my yard. The EPA officials responded that they are in Tarrant, 
Alabama, which is a suburb of Birmingham, to shut down the ABC 
Coke plant.
    Does the EPA discipline employees who act in such an 
overzealous manner?
    Mr. Meiburg. Congressman, anytime we have an allegation of 
misconduct, we investigate it. If the investigation shows that 
misconduct has occurred, then we will take action to hold the 
employee accountable.
    Mr. Palmer. So do you punish that or do you encourage it?
    Mr. Meiburg. Again, Congressman, when an allegation occurs 
of misconduct, we investigate it. As Director Sullivan 
specified, one of the things that occurs on many investigations 
is the investigation does not find any wrongdoing. When it 
does, we take appropriate follow-up action to hold the employee 
accountable.
    Mr. Palmer. Well, I would like to point out that this is 
not the only affidavit like this. There are several others. 
We're not going to release them. We're not going to enter them 
into the record or use their names at this time.
    But do you believe it is appropriate for the EPA personnel 
to pressure and intimidate citizens into endorsing the EPA's 
agenda?
    Mr. Meiburg. Congressman, I am not familiar with the 
specifics that you are referring to. I would be happy to take 
that back.
    Mr. Palmer. The specifics here are the EPA employee forced 
this renter to give access to property they didn't have legal 
access to in an intimidating manner. And then afterward told 
them the whole point of the investigation was to shut down a 
legal business.
    Is that how the EPA does business? Do you encourage your 
employees to do that? Do you allow them to intimidate? Do you 
allow them to operate outside the law? Are you aware that this 
goes on?
    Mr. Meiburg. Congressman, again, I'm not familiar with the 
specifics of the cases ----
    Mr. Palmer. I am asking you in general.
    Mr. Meiburg. In general, we ask employees to behave in 
accordance with good, solid standards of professional conduct.
    Mr. Palmer. Well, they don't always.
    Do you believe it is appropriate for EPA employees to seek 
to shut down a legitimate business that employs many people?
    Mr. Meiburg. Again, Congressman, our job is to go out and 
to enforce the law to make sure that people are protected and 
the laws are followed. That is what we do.
    Mr. Palmer. Let me tell you, I have a number of issues with 
the EPA, how they do business, how they handle their 
investigations.
    Senator Richard Shelby, Senator Jeff Sessions, and I sent a 
letter to Administrator McCarthy and Regional Administrator for 
Region Four Heather McTeer Toney back on February 26 of this 
year, asking for information about the EPA's investigation of 
this area and got a letter back saying: With respect to your 
concerns about the EPA's enforcement approach and/or theories 
of liability against any PRP associated with the site, 
unfortunately, the EPA cannot engage in any level of 
discussions with third parties, including Members of Congress, 
as articulated in memorandum--and I have the memorandum here.
    That seems to me to undermine our oversight ability.
    I intend, Mr. Chairman, to look into this further. I would 
like to enter my letter and the EPA's response into the record, 
if there are no objections.
    Mr. Gosar. Without objection, so ordered.
    Mr. Palmer. I yield the balance of my time. Thank you, Mr. 
Chairman.
    Mr. Gosar. I thank the gentleman from Alabama.
    The gentlewoman from Illinois, Ms. Kelly, is recognized for 
5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Meiburg and Mr. Sullivan, thank you for being here.
    Misconduct from a few bad apples gives all the other 
hardworking Federal employees a bad name. As elected officials, 
we can relate to that, too.
    Our goal is to ensure that agencies act swiftly and fairly 
in cases like these. This committee has worked with agencies to 
improve and streamline their internal procedures while 
preserving employee rights.
    Today, we have heard about the new policies and 
information-sharing processes at EPA and the IG.
    Mr. Sullivan, in your testimony, you state that since the 
committee's hearing on EPA misconduct in April 2015, the 
agency's internal adjudication process has, and I quote, 
``dramatically improved.'' Is that correct?
    Mr. Sullivan. Yes, Ms. Kelly, that is correct.
    Ms. Kelly. Thank you.
    Mr. Meiburg, these improvements at EPA have occurred 
through changes in administrative policy and process, not 
through legislative change. Is that correct?
    Mr. Meiburg. Yes, Congresswoman. That is correct.
    Ms. Kelly. Mr. Meiburg, in your opinion, do managers at 
your agency have sufficient tools under current law to deal 
with allegations of misconduct like the ones we heard about 
today?
    Mr. Meiburg. Congresswoman, I do, in fact, believe that. It 
is always the case, as Ranking Member Cummings said in his 
opening statement, that we can always do better, and we strive 
to do that. But we believe we have the tools we need in the 
agency to execute effective conduct and discipline.
    Ms. Kelly. It is important to remember that due process 
protections in our Federal civil service laws are there for a 
reason. In May 2015, the Merit Systems Protection Board issued 
a report that stated, and I quote, ``More than a century ago, 
the government operated under a spoils system in which 
employees could be removed for any reason, including membership 
in a different political party than the President or publicly 
disclosing agency wrongdoing. The result of such a system was 
appointment and retention decisions based on political 
favoritism. Constitutional due process protections arose in the 
law that Congress enacted to fix that broken system.''
    Mr. Meiburg, is removing due process from civil service 
laws necessary to address serious misconduct?
    Mr. Meiburg. Congresswoman, we believe that we can address 
the serious misconduct through the application of our processes 
that do, in fact, protect due process.
    Ms. Kelly. Mr. Sullivan, do you agree that without a 
legislative change, it is possible that improvements can be 
made within agencies that streamline the disciplinary process?
    Mr. Sullivan. Yes, Ms. Kelly, I agree with that.
    Ms. Kelly. Are the changes at EPA an example of such an 
improvement?
    Mr. Sullivan. Yes. I can say, from my personal experience, 
the biweekly meetings have dramatically improved the process.
    Ms. Kelly. Thank you.
    It seems to me that agencies currently have the tools to 
deal with allegations of misconduct, but they sometimes do not 
use them as efficiently and effectively as they could. I think 
that is exactly when this committee, through its oversight 
function, can help agencies improve their procedures.
    Thank you. I yield back the balance of my time.
    Mr. Gosar. I thank the gentlewoman from Illinois.
    I will recognize myself for 5 minutes.
    Mr. Sullivan, thank you for the testimony and for the 
dedicated work of your Office of Inspector General within the 
EPA. I would like to thank you especially for the work of the 
OIG in cooperation with this committee to shed light on the 
misconduct at the EPA and efforts to bring about accountability 
and reform within that agency.
    We recognize your progress while still acknowledging there 
are still many ongoing challenges within the agency's personnel 
and management. We know long-term reform and improvements to 
personnel management requires more than just new procedures and 
updates to manuals. It requires active support from leadership 
top to bottom to foster a culture of integrity, accountability, 
and best practices.
    Would you agree, Mr. Sullivan?
    Mr. Sullivan. Yes, sir, I do.
    Mr. Gosar. Mr. Meiburg, you are currently serving in one of 
the top leadership posts at the EPA, right?
    Mr. Meiburg. Yes, sir. That's right.
    Mr. Gosar. It seems from our discussion today, you are 
pretty astute about the law, right?
    Mr. Meiburg. I am not a lawyer and would not make that 
claim.
    Mr. Gosar. But you have been very articulate about banter 
from both sides in regards to this claim or that claim. You are 
pretty articulate about that, right?
    Mr. Meiburg. Thank you. That is not for me to judge.
    Mr. Gosar. Well, I mean, Mr. Hice actually engaged on you 
because you are the administrator that actually made the 
decision on that case, so you are pretty familiar with 
personnel management, right?
    Mr. Meiburg. Yes, over the course of my career, I had a 
number of conduct and discipline cases come before me, as the 
deciding official.
    Mr. Gosar. Could you please briefly describe and summarize 
your job description today?
    Mr. Meiburg. My job description is, I am the agency's chief 
operating officer, and I perform such duties as are assigned to 
me by the Administrator.
    Mr. Gosar. Now, let's go through that. You are serving as 
the Acting EPA Deputy Administrator, and you should understand 
the law, right?
    Mr. Meiburg. I, again, am serving ----
    Mr. Gosar. No, but you should understand the law. I mean, 
you are predicating this based on understanding the law, and 
all those underneath you should be following you.
    You have also been nominated by the President to serve as 
the EPA Deputy Administrator. Under the Federal Vacancies 
Reform Act and recent case law, do you realize you cannot serve 
in an acting capacity for an office that you have been 
nominated for?
    Mr. Meiburg. Congressman, I am aware of the legal case that 
you are referring to and have been assured by counsel that my 
service is lawful.
    Mr. Gosar. Whoa. Moreover, do you realize that, in such a 
situation, your actions have no force or effect under the law?
    What I am actually talking to you about is you are the CEO. 
You are applying these laws. So they basically go away.
    I would like to have the name of the counsel that gave you 
that information, because it is in total violation of Federal 
statute and law. Will you provide that to the committee?
    Mr. Meiburg. Yes, we will be happy to do that.
    Mr. Gosar. Have you ever discussed with anyone at the EPA 
the fact that, under the Federal Vacancies Reform Act, you 
cannot serve as the acting deputy director after you have been 
nominated to serve in the same office? Are you concerned that 
your actions can and will be challenged, given that they have 
no force or effect under the law?
    Mr. Meiburg. Congressman, I have been in consultation with 
our counsel and have been assured that the ----
    Mr. Gosar. I would like to have all names of individuals 
that gave you that, because that is contradictory to Federal 
law.
    Do you believe that you should step down as the Acting EPA 
Deputy Administrator, given that the law says that your actions 
have no force or effect?
    Mr. Meiburg. Again, Congressman, I have been consulted with 
counsel that all of my ----
    Mr. Gosar. I want all individuals that gave you that 
consultations, names and titles.
    Your actions in defiance of the law by your agency and this 
administration baffles me. Moreover, it does not surprise me.
    The EPA under this President has a long history of blatant 
disregard for the law and disrespect for the oversight 
authority of Congress. Your boss, EPA Administrator Gina 
McCarthy, committed perjury and made several false statements 
at multiple congressional hearings trying to defend the fact-
defying Waters of the United States regulations.
    On numerous occasions, Administrator McCarthy not only 
broke the law by lying to Congress, but, in doing so, she also 
lied to the American people in order to force misguided and 
overreaching regulations that have no scientific basis down our 
throats.
    Perjury before Congress is perjury to the American people 
and an affront to the core principles of our republic and the 
rule of law.
    You actually sitting here impersonating the CEO and being 
offered to that office by the President is an affront to that 
as well.
    That is why I have introduced articles of impeachment to 
remove Administrator McCarthy from office.
    But before you get too excited, Mr. Meiburg, thinking that 
you may get another astronomical promotion in McCarthy's place, 
I think you should step down as well. You cannot serve as the 
acting official when you are nominated to fill that post 
permanently. It is against the law. It is plain and simple.
    The personnel management within the EPA is a mess, but that 
is no surprise when the agency's top officials are willful 
lawbreakers themselves. You create that culture, and that is 
why you were set up accordingly. That is why it is going to be 
really nice for me, because we have figured a way to make sure 
that those impeachment proceedings go to the floor and make 
somebody atone for their actions.
    It is actually a mess, and it is sad that we have to bring 
this, particularly when you should know the rules better.
    That goes along with the counsel, so I will expect those 
names of all those counsel and their titles immediately to this 
committee for review.
    I thank you, and I am disgusted.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Thank you, Mr. Meiburg and Mr. Sullivan, for being here.
    To get back to one of the themes of this hearing, I have 
been interested to hear about the testimony given on improved 
coordination between EPA and the IG. The reason that interests 
me is that we obviously want to reduce the time that employees 
spend on administrative leave when obviously not doing anything 
for the agency.
    So I am interested in the investigative process. I 
recognize that it takes time. You can't cut corners. You can be 
sued. And I also understand that some of these investigations 
can be very complex.
    Mr. Sullivan, I am interested in the funding available for 
the agency to do the job that needs to be done in 
investigating. Can you tell me what the staffing levels are for 
the team that investigates misconduct allegations?
    Mr. Sullivan. Yes, ma'am. I can tell you, in general. The 
current authorized FTE for the Inspector General's Office as a 
whole is 289 employees. That has dropped in the last 5 years 
from 360. In my office, I had an authorized FTE strength of 76 
5 years ago. I am now down to 61. Because of the uncertainty in 
the budget, I haven't been able to hire back up to 61. I now 
have 55 full-time employees, 50 of which are special agents. 
The rest are professional support staff or scientists or 
computer forensic people.
    I have five agents assigned to our Office of Professional 
Responsibility here in Washington, D.C. Those agents work 
exclusively misconduct investigations on GS-15s, SES, and 
presidential appointees or political appointees.
    In the field, I have another 34 agents that work not only 
misconduct investigations, they also work most of the grant and 
contract fraud. The fraud cases are the bread-and-butter of the 
IG. Most of our criminal investigative work goes into trying to 
recoup the government's money, people that have stolen money, 
the grant money, the contract money that EPA has put out.
    So to answer your question, ma'am, I have five full-time 
agents working nothing but misconduct in headquarters and 
approximately 34 other agents working a combination of fraud 
cases, theft cases, threat cases, and misconduct cases in the 
field.
    Ms. Norton. When I hear staffing levels like this, it 
reminds me of what we are all seeing on television with TSA. I 
can't believe this is all because everybody has decided to get 
on a plane.
    I think, at some point, Congress has to understand that if 
you want people to do the job, there have to be a certain 
number of people to do it. TSA is one thing. They have been 
under great criticism because they have not always been able to 
keep, according to the GAO, weapons from getting through. That 
is an interesting case.
    This, of course, is another level of complexity. I'm going 
to have to ask you, candidly, how can these investigators keep 
from cutting corners with these kinds of staffing levels you 
described that apparently have changed during your time at the 
agency?
    Mr. Sullivan. Ma'am, I see no evidence of any of my agents 
cutting corners, but what I have testified to previously 
earlier in the hearing is that I am concerned that cases take 
way too much time to come to conclusion, because, frankly, it 
is like the analogy of planes that are circling and when do the 
planes land? The planes land, using that analogy, when the 
investigation is complete.
    Ms. Norton. Investigating employee misconduct isn't the 
only responsibility of the IG.
    Mr. Sullivan. That is correct, ma'am. We have the fraud 
cases and threat cases. We have quite a few threat 
investigations that we have right now. So we are constantly 
juggling.
    And, obviously, we prioritize every day. Almost like an 
emergency room, you triage. We investigate and handle the most 
important cases first, but you still have to take care of the 
other cases that are in the pipeline.
    Ms. Norton. What about the nonemployee misconduct-related 
investigations that the IG conducts?
    Mr. Sullivan. Yes. Most of our cases are, in fact, not 
misconduct. Approximately ----
    Ms. Norton. Not employee.
    Mr. Sullivan. Approximately 60 percent of our cases are a 
combination of the fraud cases, threat cases, assault cases, or 
theft. When I say theft, not theft by employees, theft by 
outsiders, somebody getting into a Federal facility and 
stealing computers or stealing other equipment.
    Ms. Norton. There is a limit. I think we are beginning to 
see what the limits are.
    I wish you luck with the appropriations process.
    Mr. Sullivan. Thank you, ma'am.
    Mr. Gosar. I thank the gentlewoman.
    I now recognize the gentleman from Michigan, Mr. Walberg, 
or 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Thanks to the panel.
    Mr. Meiburg, this isn't the first time this committee has 
looked to the EPA for its questionable FOIA practices. That is 
an issue I would like to address.
    EPA has been notorious for having extremely long delays in 
responding to FOIA requests. In fact, one of our recent 
witnesses in a previous hearing here, Mark Edwards, a water 
expert, a professor at Virginia Tech, testified that he waited 
several years for his FOIA request to be completed. In fact, 
many of his requests were filled the day after he appeared 
before this committee on the Flint water issue.
    This case, as well as others, I believe very clearly and 
should diminish the public's confidence in EPA's ability to be 
open and transparent.
    So could you tell us why it takes EPA so long for these 
FOIA requests to be filled?
    Mr. Meiburg. Congressman, I will just speak very generally 
to this on a couple matters. One is that we take our FOIA 
responsibilities very seriously, and we have found in recent 
years there has been a substantial increase in the number of 
FOIA requests that we have received.
    In responding to that, we tried to put together a FOIA 
expert assistance team to assist us in searching through 
documents and making sure we are fully responsive.
    Mr. Walberg. When was that team initiated?
    Mr. Meiburg. That team was initiated within the last year 
or so.
    Mr. Walberg. Are we seeing improvements on that that you 
can tell us about?
    Mr. Meiburg. We are working very hard. I don't have any 
statistics for you today, but we will be glad to get back to 
you with more information.
    Mr. Walberg. I appreciate that, because I know that you 
have to get a lot of requests, undoubtedly. When we are dealing 
with very emotional issues, substantive issues, Waters of the 
U.S., the Flint water crisis where government failed at all 
levels and people have been hurt, there certainly are emotional 
issues dealing with the requests that go on.
    But there are reasons why EPA has been brought in front of 
us on several occasions dealing with FOIA, and I hope that 
would be addressed.
    Going on to purchase cards, that was introduced I believe 
in the chairman's opening comments, how can EPA keep better 
track of the purchase cards and usage of those cards by your 
employees?
    Mr. Meiburg. Congressman, we have made a number of changes 
in response to interest from the Inspector General's Office and 
this committee and our own management concern about this to put 
in place better systems for keeping track of activities that 
occur on purchase cards and flagging anything that would be 
suspect. So we feel like we have made considerable progress on 
this over the last couple years.
    Mr. Walberg. Has there been an audit done relative to the 
employees to make sure we are not missing things?
    Mr. Meiburg. On the financial audit, we have had a clean 
audit opinion for the last several years, but we are always 
continuing to follow up to make sure we have appropriate 
systems in place to detect any misconduct.
    Mr. Walberg. Then why is it that EPA employees who spend 
thousands of dollars of EPA taxpayer money on personal expenses 
can get away with not having to reimburse the agency?
    Mr. Meiburg. Congressman, obviously, we share your concern 
about that. The cases that are before us today are cases that, 
as Director Sullivan specified, were over a couple years ago. 
We feel like we have made progress going forward to identify 
those cases and address them.
    Mr. Walberg. The particular individual that expended over 
$22,000 in international roaming charges while vacationing--and 
I think we make that clear, while vacationing abroad--will that 
the employee be required to reimburse the agency?
    Mr. Meiburg. Congressman, I am glad you brought that 
particular case up, because we are going back and trying to 
make another effort to recover the costs.
    Mr. Walberg. What is the challenge?
    Mr. Meiburg. The challenge is going to determine which 
calls--even an employee on vacation may have made work-related 
contact back to the agency, even while they were on vacation. 
We need to make sure we can separate those out and make a 
credible claim.
    Mr. Walberg. Mr. Sullivan, can you add any information to 
that, relative to that specific individual?
    Mr. Sullivan. Yes, Mr. Walberg.
    The individual actually resigned before we presented our 
findings to the agency. Then as a follow-up, the agency 
preliminarily determined it was too difficult to decide, of 
that $22,000, how many may have been work-related.
    Recently, though, as Mr. Meiburg said, the agency came back 
to us, I believe in April, last month, and said they are taking 
a second look at it and trying to present a bill to that former 
employee.
    Mr. Walberg. I hope a second look would be taken. I applaud 
that effort and want to see that completed. But in the end, if 
there is fraudulent or criminal involvement with this employee, 
I would hope that we could get after them. If not, we would 
appreciate you telling us how we can assist you in making law 
in place where we can take employees who are ruining the 
credibility of other good government employees attempting to do 
the job the best rate possible, and yet a cloud is put on them 
because of people who are willing to misuse their purposes and 
the cards and tools that they have. So help us out with that.
    I yield back.
    Mr. Gosar. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Mulvaney.
    Mr. Mulvaney. I thank the chairman.
    Mr. Meiburg, I want to go back and follow up on a couple 
questions that were raised during your discussion with Mr. 
Palmer. He was talking specifically about a circumstance in 
Alabama, where, to use his language, there was an allegedly 
overzealous EPA employee. We hear this all the time. It ranges 
from the terms ``overzealous'' to ``shakedown,'' depending on 
who you're talking to.
    I guess the question that didn't get asked, because we sort 
of ran out of time, is this. Has anybody ever been fired for 
doing that?
    Mr. Meiburg. Congressman, I cannot cite a specific example. 
I'm going to interpret your question, and I need to know if I 
am hearing it correctly, been fired for ----
    Mr. Mulvaney. Overreaching, using their position to 
intimidate somebody, using their position--enforcing the law is 
what we hire you folks to do, right? But occasionally, I guess 
it is possible that a bureaucrat, a government employee, might 
overreach. They might not like the person they are dealing 
with. They might not like what they are doing. They might not 
approve of the business that person is in.
    I used to be a real estate developer, and I can assure you 
that there are a lot of folks who like to hug trees who don't 
like what I used to do for a living, so the temptation might be 
there for an ordinary human being to sort of use that power 
that the government gives to them as an employee of the State 
to say, ``You know what? I'm going to push a little harder 
here. I'm going to stick it to this person.''
    Do you remember a single circumstance of anybody at the EPA 
ever being fired for that in your 40 years there?
    Mr. Meiburg. Congressman, first of all, I appreciate your 
observation that the job of law enforcement is oftentimes not a 
popular job or designed to make everybody like you.
    I am not aware, in my own experience, of a case that is 
similar to what I am hearing you say is someone who overused or 
abused their authority and was subsequently terminated solely 
for that reason. But I will ask the staff to go back and look 
and see if there such a thing.
    Mr. Mulvaney. Mr. Sullivan, if there are allegations of 
that like in the example Mr. Palmer mentioned, that someone had 
been overzealous and perhaps exceeded their authority--let's 
use that term. Maybe that is a little bit more neutral. Would 
that rise to the level of something the OIG would look at?
    Mr. Sullivan. It could. But this is the first time I am 
hearing of it, when Mr. Palmer brought this issue up. It has 
not been, to my knowledge, referred to the Inspector General's 
Office as an allegation of misconduct.
    Mr. Mulvaney. Got it. Again, I am using his as an example. 
He knows much more about his example in Alabama than I ever 
will.
    So my question is more general. Have you ever investigated 
allegations of overreaching authority on the part of an EPA 
employee?
    Mr. Sullivan. Yes.
    Mr. Mulvaney. Do you recall anybody ever being terminated 
for that action?
    Mr. Sullivan. Off the top of my head, I can't recall 
specifically how the cases were adjudicated, but, for example, 
we had allegations of people using their position to get a 
favor, something that is not readily available to an average 
citizen, those types of instances. We also had instances where 
people may have used government property for their personal 
gain, misused a government vehicle, let's say, misused 
government funds.
    Mr. Mulvaney. Okay, there actually was a fairly high 
profile--at least, it's high-profile to us, because it is in 
our briefing materials--about an employee in I guess the San 
Francisco area who lent out a trailer or piece of equipment to 
an environmentalist group or something like that.
    Are you gentlemen familiar with those facts and 
circumstances?
    Mr. Sullivan. I am familiar with that case.
    Mr. Mulvaney. Again, the person wasn't fired.
    Mr. Sullivan. He was not fired.
    Mr. Mulvaney. Maybe my question is this, in my last minute, 
give me a couple examples. What does it take to get fired from 
the EPA? What do you have to do? Do you have to kill somebody, 
or is it a little short of that?
    Mr. Meiburg. It can be a little short of that.
    There are cases where we have done terminations. In my 
experience, I have done terminations. The kinds of behaviors 
that are involved are pretty unpleasant and not the kind of 
things that you would certainly want to ever have an employee 
engage in.
    But when they engage in those kinds of things, on a case-
by-case basis, considering employees' due process rights and 
making sure that, as the deciding official, you have all the 
facts, the allegation is proven, that you've followed the 
regulations in the process, that you do, in fact, terminate 
employees.
    Mr. Mulvaney. Help me understand, Mr. Meiburg, and I 
recognize the fact that we are speaking in generalities, but if 
you had to sort of estimate, when you're dealing with 
allegations of impropriety, and they are serious allegations, 
and you determine them to be valid allegations that actually 
have some substance to them, what percentage of people quit or 
retire versus get fired under those circumstances?
    Mr. Meiburg. Congressman, I do not have an exact 
percentage, but it is not uncommon that people who find 
themselves faced with a proposed termination will make an 
election to retire or resign.
    Mr. Mulvaney. And if they retire or resign, they get to 
keep their benefits, right?
    Mr. Meiburg. We have no authority under law ----
    Mr. Mulvaney. I am not saying that you do. The answer is 
yes, they do get to keep their benefits.
    Mr. Meiburg. Except in some very limited cases that involve 
treason or espionage or aiding terrorist groups.
    Mr. Mulvaney. So let me close with this, as a manager, 
which is what you are--you manage people. I used to do it. You 
do it. You have done it for a long time with EPA. Would it 
actually make your job easier if we gave you that additional 
tool to, on a case-by-case basis, or perhaps expand the 
existing case-by-case basis, to deny people who have been found 
to have acted improperly, to deny them some or all of their 
benefits, even if they choose retirement or resignation over 
termination?
    Mr. Meiburg. Congressman, I think I would answer that 
simply by saying that I think we have the abilities under our 
existing administrative tools to appropriately address 
misconduct and to hold employees accountable. I want to make 
sure we are using those tools as effectively as we can.
    Mr. Mulvaney. But if we gave you this additional tool, it 
would help you, wouldn't it?
    Mr. Meiburg. That would be speculation, Congressman. I 
really couldn't say.
    Mr. Mulvaney. We do it all the time. Thank you very much, 
Mr. Meiburg. I appreciate it.
    Mr. Gosar. I thank the gentleman.
    I now recognize the gentlewoman from the Virgin Islands, 
Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Good morning.
    Mr. Meiburg. Good morning.
    Mr. Sullivan. Good morning.
    Ms. Plaskett. During last April's hearing on the EPA's 
management issues, Chairman Chaffetz highlighted what he 
called, and I quote, ``management failures at the EPA.'' I am 
not sure if that characterization is an appropriate one. It 
appears that we are still in discussion about this today.
    But I wanted to discuss what has occurred since last April. 
It is my understanding the EPA has taken significant steps to 
address weaknesses in the disciplinary process. I don't think 
necessarily firing a bunch of people means that you are a good 
manager. That may be the sign of a poor manager that constantly 
has to fire people rather than bring them up to speed and make 
them an appropriate worker.
    But, Mr. Meiburg, your testimony described the progress EPA 
has made. And you state, and I am quoting here, ``As a result 
of the work of this committee, and especially Ranking Member 
Cummings, we have improved our working relationship with OIG, 
which has enabled us to take more efficient administrative 
actions.''
    Would you care to elaborate on that, sir, on that 
statement?
    Mr. Meiburg. Only to say, again, that this has been a two-
way street, and we feel that we have reached out to the 
Inspector General's Office, and the Inspector General's Office 
has reached out to us, in pursuit of a common objective, which 
is we want to make sure that employees are held accountable, 
and the misconduct cases are dealt with appropriately, while 
also making sure that we do that in a way that protects ----
    Ms. Plaskett. So how is that different than your 
relationship previously?
    Mr. Meiburg. I really couldn't say for the agency as a 
whole from before the time I got here, but I think there has 
been reaching out on both sides, and it is really commendable.
    Ms. Plaskett. Mr. Sullivan, would you agree with that?
    And your statement, I'm going to quote from you, that ``the 
agency's internal adjudication process has dramatically 
improved.'' Is that correct?
    Mr. Sullivan. Yes, Ms. Plaskett. I will explain the 
difference.
    Prior to us having this biweekly meeting, for example, if 
we had a misconduct investigation in Denver or San Francisco, 
the folks at headquarters had very little visibility on that, 
and it may languish for months or years. Whereas now, every 
misconduct investigation that is pending across the agency, Mr. 
Meiburg's staff, the attorneys at EPA headquarters, the labor 
and employee relations folks, meet biweekly. And that case 
heretofore that may have been languishing in San Francisco or 
Seattle or wherever is no longer allowed to languish. The folks 
at EPA headquarters have visibility on it, and they are pushing 
it along to make sure that those cases are addressed 
appropriately and expeditiously.
    Ms. Plaskett. And you would say that the cases are moving 
at a much faster pace to closure than they were previously?
    Mr. Sullivan. Absolutely. Yes, ma'am.
    Ms. Plaskett. And you have evidence of that, quantitative 
evidence of that?
    Mr. Sullivan. Yes. I could tell you that, within the past 
year, we have successfully closed or the agency has determined 
what disciplinary action to take, if any, and we have 
successfully closed our cases out at a much higher rate.
    We can't close our case until we hear back from the agency 
as to what they are going to do.
    Ms. Plaskett. Okay, and have you been satisfied with the 
recommendations that the agency has made on those cases?
    Mr. Sullivan. Ma'am, that is something that--our job is to 
collect facts in a fair and unbiased manner. It is not 
relevant, in my opinion, whether I think discipline is 
appropriate or not. I defer completely to the agency in that 
regard.
    Ms. Plaskett. Got you. You said about the process that you 
are describing, Mr. Sullivan, and quote, ``I believe this 
process can serve as a best-practices model for the Federal 
Government.'' Is that correct?
    Mr. Sullivan. Yes, ma'am. I spoke to Mr. Cummings' staff 
and Mr. Chaffetz' staff. They are taking an effort to reach out 
to the entire IG community using the EPA as a model to educate 
the rest of the IG community that maybe there is a way to get 
these cases moved faster governmentwide.
    Ms. Plaskett. I think that would alleviate this committee 
maybe having to have as many hearings as they have for these 
other agencies, and we can get on with the actual work of 
Congress, if we were to do that.
    But would you support efforts to encourage then 
governmentwide adoption of this? And your office would be 
willing to work with this committee to do that?
    Mr. Sullivan. We certainly do support that, and we have 
worked with the committee.
    But one caveat, the EPA, we are unique, somewhat unique in 
that we don't have any subcomponents. There's just one EPA, and 
there is one IG. If you take DHS or the Department of Justice, 
they have multiple subcomponents and the model that we have at 
EPA probably wouldn't work in a department that has multiple 
subcomponents, just to put that out.
    Ms. Plaskett. And have you thought about what would work in 
agencies like that?
    Mr. Sullivan. No, ma'am. I really haven't given that much 
----
    Ms. Plaskett. We have to get you thinking on this, Mr. 
Sullivan.
    Mr. Sullivan. Thank you.
    Ms. Plaskett. So it seems to me that EPA and the OIG have 
shown that better coordination and communication can help 
agencies take administrative action more quickly in misconduct 
cases. And I'm really grateful for the work that you have done 
since April, from our first hearing, to actually address many 
of these issues, move these cases along to closure.
    I don't believe, having managed many people, working at the 
Department of Justice, with the Deputy Attorney General's 
Office managing 9,000 attorneys, that necessarily firing people 
is the measure by which one determines that you have done a 
good job, in terms of dealing with misconduct. So I am grateful 
for the work that you all have done.
    I yield the balance of my time.
    Mr. Gosar. I thank the gentlewoman.
    A couple housekeeping matters.
    Mr. Meiburg, Mr. Mica would like to know for the record, 
and to have you answer back to the committee, how many 
employees of the EPA get bonuses.
    Mr. Meiburg. We will supply that.
    Mr. Gosar. We would appreciate it.
    I also want to make sure that we have a date certain for 
the names and titles of the people who gave you the permission. 
I would expect that in 2 weeks. It can't be very many. I would 
expect them in 2 weeks. I am a taskmaster, okay?
    One last thing, Mr. Sullivan, are you aware of the Federal 
Vacancies Reform Act?
    Mr. Sullivan. In general terms, not in specificity.
    Mr. Gosar. Are you aware of anybody that had a plausible 
conflict that has been made aware of today in this committee 
with Mr. Meiburg?
    Mr. Sullivan. No, I'm generally aware of the issue 
involving Mr. Meiburg, but we were told by the agency that it 
is not an issue, based on their counsel's opinion.
    But we have not investigated that issue, to my knowledge.
    Mr. Gosar. Could we also have the names from the people 
that you consulted at the EPA that gave you the talking points 
----
    Mr. Sullivan. Our counsel office, I know I was briefed that 
there was an issue, but I will get back to the committee on 
that through our counsel's office, and I will let you know.
    Mr. Gosar. I guess we have a gentleman here.
    Mr. Duncan from Tennessee is recognized for 5 minutes.
    Mr. Duncan. That is all right, Mr. Chairman. Since I just 
got here, you can go ahead.
    Mr. Gosar. With that, I would like those names within 2 
weeks as well, the counsel that talked to you about that and 
any other cases in regards to ----
    Mr. Sullivan. I didn't speak directly to anyone from the 
EPA's counsel. I was just briefed in my office by my counsel's 
office, I believe, or at a meeting that this issue came up.
    According to the agency's general counsel, it is not an 
issue. That is what I was told.
    Mr. Gosar. Yes, I would like to know from your counsel, the 
counsel from the EPA that actually instructed that it wasn't a 
problem.
    Mr. Sullivan. Yes.
    Mr. Gosar. I mean, you do see the conflict, because 
according to the Federal Vacancies Reform Act, anything that 
Mr. Meiburg may be implementing may be null and void, based 
upon the premise that is actually in place there.
    So the culture that we are building here is predicated on 
the culture that exists at the top levels, because you do lead 
by example. That is what the problem is in this application.
    Mr. Sullivan. Yes, sir. I understand the task, and we will 
get back to you.
    Mr. Gosar. I will acknowledge Mr. Duncan.
    Mr. Duncan. Mr. Chairman, I'm sorry I was over on the floor 
and didn't get to hear some of this, but I am curious. I have 
read some of the material here about some of these employees 
who have been watching all of this pornography for hours at a 
time, and then employees who have admitted stealing thousands 
of dollars from the EPA.
    Have all these employees or have any of these employees 
been fired?
    Mr. Meiburg. Mr. Congressman, again, of the cases that we 
looked at here, many of the employees are no longer with 
agency. There were cases where people were proposed for 
termination and then resigned.
    Mr. Duncan. They resigned.
    Mr. Meiburg. Yes.
    Mr. Duncan. So you do not have any employees now at the EPA 
who have been found to have stolen money or spent hours 
watching pornography and so forth? They have either left or 
resigned?
    Mr. Meiburg. Congressman, there are employees who have 
resigned or been terminated, and there are employees who have 
been disciplined in other means than resignation or 
termination. Some of them are still with agency.
    Mr. Duncan. Disciplined. In what ways do you discipline 
somebody like that?
    Mr. Meiburg. Congressman, there is a wide range of 
disciplinary actions that are available to a deciding official 
based on a consideration of all the factors, such as how long 
the employee has been with agency, the severity of the crime, 
or the severity of the misconduct.
    They include all the way from--they can go all the way from 
reprimands to suspensions for a period of time to a reduction 
in grade.
    Mr. Duncan. And I am assuming you have changed some of 
these policies to make sure that this type of activity doesn't 
continue in the future?
    Mr. Meiburg. Yes, we've changed a number of policies. I 
think the staff came up and briefed the committee staff on 
policies and changes we made, specifically with respect to the 
viewing of pornography, so, yes.
    Mr. Duncan. All right, thank you very much.
    Mr. Gosar. I thank the gentleman.
    If there is no further business, I thank the witnesses for 
their appearance here today.
    Without any further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 10:47 a.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               

                                 <all>
</pre></body></html>
